                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A04050030                                                                       Page 1 of 1



        An allegation was received that a false allegation of research misconduct had been made by a PI'
        on a f h d e d NSF grant2against the co-PI,' both at the same institution. An institutional inquiry
        into that allegation was terminated by a personnel agreement reached between the co-PI and the
        institution, and the co-PI resigned from the position at the institution, and subsequently left the
        country.

        The original dispute is the appearance of a single sentence in a publication that refers to
        preliminary data obtained by others? However, separate citation to unpublished work would not
        be required by the standards of scholarship, given that the subject of the allegation was an author
        on the published paper as well a member of the collaborative team that produced the preliminary
        data. The quoted sentence makes no redoubtable statements, and is not referenced further in the
        published paper. There is no substance to the allegation of plagiarism.

        Although there is substance to support the allegation of a bad faith allegation made at the
        institutional level, there is no regulatory basis from which to proceed. The Institution has failed
        to notify NSF program officers of the significant problems in the administration of this grant, and
        we will apprise the cognizant NSF program officer of this failure.

        Accordingly, this case is closed.




              -




        ' Redacted
         Redacted.
         Redacted.
         Redacted.



SF
 OIG Form 2 (1 1/02)
